Audit Report




OIG-14-006
Audit of the Federal Financing Bank’s Fiscal Years 2013 and
2012 Financial Statements


December 11, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                         DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                                   December 11, 2013


            MEMORANDUM FOR SECRETARY LEW

            FROM:                    Eric M. Thorson
                                     Inspector General

            SUBJECT:                Audit of the Federal Financing Bank’s Fiscal Years 2013 and 2012
                                    Financial Statements


            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB) financial
            statements for fiscal years 2013 and 2012, as required by the Government Corporation Control
            Act.

            DISCUSSION:

            Under a contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of the financial statements of FFB as of
            September 30, 2013 and 2012 and for the years then ended. The contract required that the audit
            be performed in accordance with generally accepted government auditing standards and Office
            of Management and Budget Bulletin No. 14-02, Audit Requirements for Federal Financial
            Statements.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in accordance
                    with U.S. generally accepted accounting principles;
                •   no matters involving internal control and its operations that are considered material
                    weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.
Page 2

In connection with the contract, we reviewed KPMG LLP’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated December 9, 2013, and the conclusions
expressed in the reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a member of your staff
may contact Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc:      Mary Miller
         Under Secretary for Domestic Finance
     FEDERAL FINANCING BANK
           Financial Statements
       September 30, 2013 and 2012
(With Independent Auditors’ Report Thereon)
                                     FEDERAL FINANCING BANK


                                             Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Financial Statements                                                          5

Notes to Financial Statements                                                 8

Other Information – Schedule 1                                               17

Independent Auditors’ Report                                                 18

Independent Auditors’ Report on Internal Control Over Financial Reporting    20

Independent Auditors’ Report on Compliance and Other Matters                 21
                                    FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                                      September 30, 2013 and 2012



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and
direction of the Secretary of the Treasury. The Congress created the Bank in 1973, at the request of the
U.S. Department of the Treasury (Treasury). The Bank borrows from Treasury and lends to Federal
agencies and private borrowers that have Federal guarantees. The Bank also has a debt obligation to the
Civil Service Retirement and Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate
such borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done
in ways that least disrupt private markets. To accomplish this mission, the Bank exercises its broad
statutory authority to purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the
sale or placement of credit market instruments, including agency securities, guaranteed obligations,
participation agreements, and the sale of assets. This principle is applied in a manner consistent with the
Federal Financing Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed
programs entailing large numbers of relatively small loans in which local origination and servicing are an
integral part of the program are excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with
program requirements. The Bank is capable of providing a lending rate for any amount required and for
nearly any maturity. The rates charged by the Bank for terms such as prepayment provisions and pass-
through of service charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of
funds by agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have
such a need. In no case will funds provided by the Bank be invested in private credit instruments or be used
to speculate in the market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury,
who as provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic
Finance; the General Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in
parentheses): the Under Secretary for Domestic Finance (President); the General Counsel (General
Counsel); the Assistant Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary
(Vice President); the Deputy Assistant Secretary for Government Financial Policy (Vice President and
Treasurer); and the Director, Office of Federal Lending (Secretary and Chief Financial Officer). A

                                                     1
                                     FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                                       September 30, 2013 and 2012



delegation by the Bank President authorizes any Bank Vice President, in consultation with any other Bank
officer, to exercise the powers of the Presidency.

The staff of the Bank is organized into four units: accounting, information technology, lending and
operations. Each area of functional unit is headed by a Director that reports to the Chief Financial Officer.
The Director of Accounting is responsible for the loan transactions, including but not limited to overseeing
loan disbursements and repayments as well as managing the accounting and financial reporting. The
Director of Information Technology is responsible for management and oversight of the IT infrastructure,
including but not limited to software development, and maintenance of mission critical enterprise
applications that provide support for lending and accounting functions. The Director of Lending is
responsible for loan administration function, including but not limited to loan origination, loan structuring,
and managing customer relationships. The Director of Operations is responsible for coordinating the
general management functions including but not limited to budgeting, procurement, human resources,
strategic planning and facilities.

Loan Programs Activity

The Community Development Financial Institution Fund (CDFI Fund) was created by the Riegle
Community Development and Regulatory Improvement Act of 1994, to promote economic revitalization
and community development through investment in and assistance to community development financial
institutions. On September 19, 2013, the Bank and CDFI entered into a program financing agreement
totaling $1.5 billion to support CDFI’s mission for community development. The Secretary may guarantee
up to $500 million of the bonds in fiscal year 2013 and $1 billion in fiscal year 2014.

On September 24, 2013, the Bank entered into a $10 billion note purchase agreement with the Farm Credit
System Insurance Corporation (FCSIC) for the purpose of establishing a standby line of credit. FCSIC was
established by the Agricultural Credit Act of 1987 to ensure the timely payment of principal and interest on
insured notes, bonds and other obligations issued on behalf of the System Banks.

Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Services (RUS) Cushion of Credit Payments Program (cushion of credit), the Bank receives considerably
less interest each year on certain RUS loans that it holds than it is contractually entitled to receive. The
shortfall in interest received by the Bank has resulted in substantial deficits in the past. The cumulative
losses from interest credits taken by the RUS, beyond losses that were extinguished by appropriation in a
previous year, totaled $2,180,432 thousand through September 30, 2013. The interest shortfall is recorded
on the statement of operations and changes in net position as a legislatively mandated interest credit
(contra-revenue to interest on loans). The Bank has paid off all debt used to finance this program.

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as
Gramm-Rudman-Hollings Act, the Consolidated Omnibus Budget Reconciliation Act of 1985, and the
Federal Credit Reform Act of 1990 included provisions that have prohibited or limited the Bank’s
financing of certain loans that are 100 percent guaranteed by Federal agencies.




                                                  2
                                    FEDERAL FINANCING BANK
                                  Management’s Discussion and Analysis
                                       September 30, 2013 and 2012



Impact of Economic Conditions

All Bank assets are, or have a commitment to be, full faith and credit obligations of the U.S. Government
and economic conditions do not affect repayments to the Bank. Certain borrowers have repaid their loans
with the Bank early, while other borrowers have increased their borrowing activities with the Bank.

Loans backed by the full faith and credit of the U.S. Government are the credit equivalent of Treasury
securities. The Bank does not expect to suffer any credit losses from loans backed by the full faith and
credit of the U.S. Government.

United States Postal Service

The United States Postal Service (USPS) is an independent establishment of the executive branch of the
U.S. Government, which borrows from the Bank to finance its capital improvements and defray operating
expenses. The USPS has a total borrowing authority of $15 billion. The USPS borrowed up to the
maximum debt ceiling on September 30, 2013. The USPS repaid $4 billion of the outstanding amount on
October 1, 2013. The outstanding balance was further reduced to $11 billion on October 7, 2013. The
USPS can be expected to borrow up to the ceiling amount at different times in the coming year.

The USPS had a fiscal year 2013 deficit due to a decline in mail volume. As a result, the USPS was unable
to make payments for legislatively mandated prefunding of retiree health benefits. However, relieving
USPS of the obligation to prefund retiree health benefits will not, in and of itself, resolve the current and
long-term financial issues of the USPS. The Administration, Congress, and other stakeholders are aware of
the current and long-term financial issues of USPS. Congress is considering legislative solutions to return
the USPS to financial stability.

The Bank has not incurred any credit-related losses on its loans as of the date of these statements, and as
stated above, all Bank assets are, or have a commitment to be, full faith and credit obligations of the U.S.
Government.

Financial Highlights

Statements of Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended
September 30, 2013. Interest on loans of $2,613,634 thousand for the fiscal year ended September 30, 2013
decreased compared to the interest on loans of $2,642,121 thousand for the fiscal year ended
September 30, 2012, due to the prepayments for certain borrowers which were made in fiscal year 2012
which ultimately affected the Bank’s interest income. The legislatively mandated interest credits reduced
interest income by $100,001 thousand and $158,794 thousand for the fiscal years ended September 30,
2013 and 2012, respectively, and are related to RUS’s “cushion of credit” loans. Revenue from servicing
loans of $2,275 thousand for the fiscal year ended September 30, 2013 increased from $1,493 thousand for
the fiscal year ended September 30, 2012 due to the timing of RUS’s quarterly payments.

Interest on borrowings of $2,210,538 thousand for the fiscal year ended September 30, 2013 increased
from the interest on borrowings of $2,176,933 thousand for the fiscal year ended September 30, 2012
primarily due to the change in repayment structure resulting from the borrowing agreement with the
                                                  3
                                    FEDERAL FINANCING BANK
                                 Management’s Discussion and Analysis
                                      September 30, 2013 and 2012



Secretary of the Treasury. After administrative expenses of $5,406 thousand, net income of
$300,343 thousand for the fiscal year ended September 30, 2013 decreased from the net income of
$302,788 thousand for the fiscal year ended September 30, 2012.

Statements of Financial Position Highlights

Funds with U.S. Treasury (cash equivalents) amounted to $912,186 thousand at September 30, 2013,
which represents an increase from the September 30, 2012 balance of $716,258 thousand.

The loan portfolio (loans receivable) increased $4,761,596 thousand from $67,862,609 thousand at
September 30, 2012 to $72,624,205 thousand at September 30, 2013. The change is primarily the result of
a $2,888,023 thousand increase in loan activity to RUS, $1,747,843 thousand increase in new loans to the
Department of Energy (DOE), and other loan activity. The Bank’s net position increased to
$4,602,446 thousand at September 30, 2013 from $4,302,103 thousand at September 30, 2012 primarily as
a result of positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed or have a commitment to be full faith and
credit obligations of the United States. The Bank’s borrowings increased by $4,575,030 thousand due to
increased lending activities.

Performance Highlights

During fiscal year 2013, the Bank processed 1,410 new loan requests. The interest rate was set or reset on
3,989 loans in fiscal year 2013 for new loans and maturity extensions. The Bank processed 137
prepayments and 44,545 loan repayments in fiscal year 2013.

Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control, as of
June 2013. Additionally, in fiscal year 2009, a private contractor performed a certification and
accreditation of the Bank’s enterprise management system, known as the Loan Management Control
System (LMCS), which was effective for three years. The recertification was due in 2012, when the LMCS
was anticipated to be migrated to a new computer platform (Integrity). A certification was completed for
Treasury’s Departmental Offices (DO) Integrity platform and the Bank’s LMCS combined. However, due
to a delay in fully installing the Integrity computers, the migration was postponed. On June 29, 2012, DO
issued an “Authority to Operate for LMCS” memo to bridge the operation of the LMCS on its current
computer platform (Alpha) until the migration to the Integrity platform is completed. Future LMCS
certifications will be included with Treasury’s certifications.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully
comply with the requirements for agency internal accounting and administrative control systems, providing
reasonable assurance that they are achieving the intended objectives.




                                                 4
                                           FEDERAL FINANCING BANK
                                           Statements of Financial Position
                                            September 30, 2013 and 2012
                                                (Dollars in thousands)


                                  Assets                                        2013            2012
Funds with U.S. Treasury                                                  $      912,186         716,258   
Investments held-to-maturity (note 3)                                            493,887         493,446   
Loans receivable (note 4)                                                     72,624,205      67,862,609   
Accrued interest receivable                                                      161,876         466,149   
Advances to others                                                                    18              55   
              Total assets                                                $   74,192,172      69,538,517   
                        Liabilities and Net Position
Liabilities:
   Borrowings:
      Principal amount                                                    $   69,381,532      64,776,632   
      Plus unamortized premium                                                    72,584         102,454   
              Total borrowings (note 5)                                       69,454,116      64,879,086   
  Accrued interest payable                                                       135,209         357,163   
  Other liabilities                                                                  401             165   
              Total liabilities                                               69,589,726      65,236,414   
Loan and interest credit commitments (notes 8 and 1(j))
Net position (note 6)                                                          4,602,446       4,302,103   
              Total liabilities and net position                          $   74,192,172      69,538,517   


See accompanying notes to financial statements.




                                                          5
                                       FEDERAL FINANCING BANK
                              Statements of Operations and Changes in Net Position
                                   Years ended September 30, 2013 and 2012
                                                (Dollars in thousands)


                                                                               2013              2012
Revenue and financing sources:
  Interest on loans                                                      $    2,613,634         2,642,121   
  Less legislatively mandated interest credit                                  (100,001)         (158,794)  
              Net interest on loans                                           2,513,633         2,483,327   
  Interest on investments                                                              379            288   
  Revenue from servicing loans                                                       2,275          1,493   
              Total revenue                                                   2,516,287         2,485,108   
Expenses:
  Interest on borrowings                                                      2,210,538         2,176,933   
  Administrative expenses                                                         5,406             5,387   
              Total expenses                                                  2,215,944         2,182,320   
              Net income                                                 $      300,343          302,788   
Net position:
  Beginning of year                                                      $    4,302,103         3,999,315   
  Net income                                                                    300,343           302,788   
  End of year (note 6)                                                   $    4,602,446         4,302,103   


See accompanying notes to financial statements.




                                                          6
                                           FEDERAL FINANCING BANK
                                                Statements of Cash Flows
                                        Years ended September 30, 2013 and 2012
                                                  (Dollars in thousands)


                                                                                      2013              2012
Cash flows from operating activities:
  Net income                                                                $          300,343           302,788   
  Adjustments to reconcile net income to net cash provided
     by operations:
        Amortization of premium on borrowings                                          (29,870)          (35,327)  
        Capitalization of interest receivable                                         (122,067)          (58,345)  
        Capitalization of interest payable                                             200,410           129,344   
        Decrease (Increase) in accrued interest receivable                             304,273          (314,922)  
        Decrease in advances to others                                                      37                11   
        (Decrease) Increase in accrued interest payable                               (221,954)          170,872   
        Increase (Decrease) in other liabilities                                           236              (262)  
              Net cash provided by operating activities                                431,408           194,159   
Cash flows from investing activities:
  Investment purchases                                                                    (441)             (192)  
  Loan disbursements                                                              (244,257,891)     (654,980,692)  
  Loan collections                                                                 239,618,362       644,264,320   
              Net cash (used in) provided by investing activities                   (4,639,970)      (10,716,564)  
Cash flows from financing activities:
  Borrowings                                                                       244,258,332       654,980,885   
  Repayments of borrowings                                                        (239,853,842)     (644,584,075)  
              Net cash provided by financing activities                              4,404,490        10,396,810   
              Net increase (decrease) in cash                                          195,928          (125,595)  
Funds with U.S. Treasury – beginning of the period                                     716,258           841,853   
Funds with U.S. Treasury – end of the period                                $          912,186           716,258   
Supplemental disclosures of cash flow information:
  Interest paid (net of amount capitalized)                                 $        2,249,157         1,876,620   


See accompanying notes to financial statements.




                                                            7
                                    FEDERAL FINANCING BANK
                                      Notes to Financial Statements
                                      September 30, 2013 and 2012
                                          (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281) as an instrumentality of the U.S. Government and a body corporate under the general
      supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are
      applied to other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury
      (Treasury), in order “to assure coordination of Federal and federally assisted borrowing programs
      with the overall economic and fiscal policies of the U.S. Government, to reduce the cost of Federal
      and federally assisted borrowing from the public, and to assure that such borrowings are financed in
      a manner least disruptive of private financial markets and institutions.” The Bank was given broad
      statutory authority to finance obligations issued, sold, or guaranteed by Federal agencies so that the
      Bank could meet these debt management objectives.

      The Bank is authorized to issue obligations to the public in amounts not to exceed $15,000,000 with
      the approval of the Secretary. Additionally, the Bank is authorized to issue obligations in unlimited
      amounts to the Secretary and, at the discretion of the Secretary, may agree to purchase any such
      obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting
            principles generally accepted in the United States of America (GAAP), based on standards
            issued by the Financial Accounting Standards Board (FASB), the private-sector
            standards-setting body. The Federal Accounting Standards Advisory Board (FASAB) has
            indicated that financial statements prepared based upon standards promulgated by the FASB
            may also be regarded as in accordance with GAAP for those Federal entities, such as the Bank,
            that have issued financial statements based upon FASB standards in the past. Accordingly,
            consistent with historical reporting, the Bank’s financial statements are presented in
            accordance with accounting and financial reporting standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes
            loans when they are issued and related repayments when they are received. The Bank
            recognizes investments when they are made and investment redemptions when the proceeds
            are received. The Bank recognizes borrowings when they are received and repayments when
            they are made. In addition, the Bank recognizes interest on loans, interest on investments, and
            revenue from servicing loans when they are earned and recognizes interest on borrowings and
            expenses when they are incurred.




                                                     8
                               FEDERAL FINANCING BANK
                                 Notes to Financial Statements
                                 September 30, 2013 and 2012
                                     (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury and does not
      hold cash. For the purposes of the statements of cash flows, the funds with Treasury are
      considered cash.

(d)   Investments
      The Bank’s investments consist of investments in U.S. Treasury securities for the Home
      Ownership Preservation Entity (HOPE) Fund. The securities are categorized as held to
      maturity, because the Bank has the ability and intent to hold the securities until maturity. The
      securities are recorded at par value.

(e)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to private sector borrowers
      whose loans are guaranteed by a Federal agency. When a Federal agency has to honor a
      guarantee because a private sector borrower defaults, the Federal agency must obtain an
      appropriation or use other resources to pay the Bank. All Bank assets are, or have a
      commitment to be, full faith and credit obligations of the U.S. Government. Accordingly, the
      Bank has not recorded a reserve for default on any loans receivable.

      The Bank has not incurred any credit-related losses on its loans as of the date of these
      statements.

(f)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and
      the private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower
      or transaction, when such a rate will accomplish a broader goal. The income resulting from the
      interest spread covers the administrative expenses of the Bank. Under amendments to the
      Federal Credit Reform Act (FCRA), effective October 1, 1998, while the Bank is permitted to
      charge a spread on new lending arrangements with government-guaranteed borrowers, the
      margin is not retained by the Bank, but rather is retained by the loan guarantor. In the event
      that this results in the Bank being unable to fund its administrative expenses related to these
      loans, the FCRA, as amended, states that the Bank may require reimbursement from loan
      guarantors.

(g)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the Historically Black Colleges and
      Universities (HBCU) and the Department of Energy (DOE) have the option of deferring
      payments of interest on their loans until future periods. When HBCU or DOE elect, in
      advance, to defer interest payments, the accrued interest is recorded as capitalized interest
      receivable and added to the respective loan balance by the Bank. The Bank correspondingly
      capitalizes the interest payable on its related non-FCRA borrowings.


                                                9
                              FEDERAL FINANCING BANK
                                 Notes to Financial Statements
                                 September 30, 2013 and 2012
                                     (Dollars in thousands)



(h)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective-interest method. The
      amortization is recorded as part of interest on borrowings on the statements of operations and
      changes in net position.

(i)   Interest on Borrowings from Treasury to Fund Amounts Treated as Lending to Financing
      Accounts
      The interest on borrowings from Treasury is based on the daily Treasury New Issue Curve
      (TNIC) for all borrowings, except for borrowings used to fund certain guaranteed loans that
      require the guaranteeing federal agencies to comply with the FCRA (2U.S.C. 661(d)(3)). The
      interest rate, interest payable, and interest expense for borrowings from Treasury that are used
      to fund certain guaranteed loans subject to FCRA are determined annually by the borrowing
      agencies using the FCRA and Office of Management and Budget guidelines.

(j)   Legislatively Mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as
      loans receivable on the statement of financial position) from the U.S. Department of
      Agriculture’s Rural Utilities Services (RUS). RUS used the funds received from the Bank to
      issue loans to nonfederal entities, specifically private utility companies. In 1987, Congress
      passed legislation (i.e., 7 USC Sec. 940c – Cushion of Credit Payments Program) that required
      RUS to develop and promote a program to encourage private utility companies to voluntarily
      make deposits into cushion of credit accounts established within RUS. The legislation also
      indicated that private utility companies may reduce the balance of their cushion of credit
      account only if the reduction is used to make scheduled payments on loans received from RUS.
      In accordance with the legislation, the private utility companies accrue interest at the higher of
      5% per annum or the weighted average rate of the certificates of beneficial ownership on cash
      deposited into the cushion of credit accounts with RUS. The legislation also indicated that
      RUS shall receive an interest credit from the Bank equal to the amount of interest RUS pays to
      the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively mandated interest credit (contra-revenue to interest on loans) in the
      statements of operations and changes in net position.

(k)   Revenue from Servicing Loans
      The Bank charges certain RUS borrowers a loan service fee that is reported as revenue from
      servicing loans on the statements of operations and changes in net position. The Bank’s loan
      servicing fee is equal to one-eighth of one percent more than the contractual interest rate with
      Treasury.

(l)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by
      law, the Secretary acts as chairman of the Board of Directors. Employees of Treasury’s
      Departmental Offices perform the Bank’s management and accounting functions, and its legal

                                               10
                              FEDERAL FINANCING BANK
                                Notes to Financial Statements
                                September 30, 2013 and 2012
                                    (Dollars in thousands)



      counsel is the General Counsel of the Treasury. The Bank reimburses Treasury for the
      facilities and services it provides. The amounts of such reimbursements are reported as
      administrative expenses in the statements of operations and changes in net position.

(m)   Net Position
      The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
      appropriations from Congress to make up for accumulated losses that will not be met by
      income.

(n)   Loan Commitments
      The Bank recognizes loan commitments when the Bank and the other parties fully execute the
      promissory notes and reduces loan commitments when the Bank issues loans or when the
      commitments expire. Most obligations of the Bank give a borrower the contractual right to a
      loan or loans immediately or at some point in the future. The Bank limits the time available for
      a loan under an obligation, where applicable.

(o)   Management’s Use of Estimates
      The preparation of financial statements in conformity with GAAP requires management to
      make estimates and assumptions that affect the reported amounts of assets and liabilities and
      disclosure of contingent assets and liabilities at the date of the financial statements and the
      reported amounts of income and expenses during the reporting period. The significant
      estimates made by management are the fair value calculations. Actual results could differ from
      those estimates.

(p)   Tax-Exempt Status
      The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank
      Act of 1973 (12 USC 2281).

(q)   Related Parties
      The Bank conducts most of its financial transactions with other Federal entities, and therefore,
      the financial statement balances that represent transactions with other Federal entities include
      all assets; liabilities, except borrowings from the public; revenues; and expenses.




                                              11
                                     FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2013 and 2012
                                            (Dollars in thousands)



(2)   Accounting Pronouncement
      On February 7, 2013, FASB issued ASU No. 2013-03, FAS ASC 825, Financial Instruments
      (Topic 825),Clarifying the Scope and Applicability of a Particular Disclosure to Nonpublic Entities
      that amends ASU No. 2011-04, Fair Value Measurement and Disclosure Requirements. FASB ASC
      825 added paragraph 825-10-50-3A stating that “A nonpublic entity is not required to provide the
      disclosure in paragraph 825-10-50-10(d) for items disclosed at fair value but not measured at fair
      value in the statement of financial position”. The amendment affects nonpublic entities that have
      total assets of $100 million or more or that have one or more derivative instruments. Amendment
      ASU No. 2013-03 is effective upon issuance, so it is applicable to the Bank’s fiscal year 2013
      financial statements. The Bank is not required to provide fair value measurement disclosure in the
      notes to the financial statements. Therefore, the Bank elected not to present the fair value of its assets
      and liabilities.
(3)   Investments Held to Maturity (the HOPE Bond Transaction)
      The Secretary is authorized to issue up to $300,000,000 HOPE bonds under the HOPE for
      Homeowners Act of 2008, and the Bank will purchase the HOPE bonds issued by the Secretary. The
      HOPE bonds purchased by the Bank are reported as investments held-to-maturity, and the related
      interest receivable is reported as accrued interest receivable in the Bank’s statements of financial
      position. The carrying amount for the HOPE bond at September 30, 2013 is $493,887 and for
      September 30, 2012 it was $493,446. The interest rate is 0.042% and 0.103% as of September 30,
      2013 and 2012, respectively, with floating interest rates reset quarterly. The bonds have 30-year
      maturity dates starting on August 27, 2039 and ending on July 15, 2043.

      The Bank borrowed funds from Treasury at the same terms to purchase the HOPE bonds.

(4)   Loans Receivable
      Loans receivable represent the outstanding balances being treated as loans to agencies. The Bank has
      the ability and intends to hold loans receivable until maturity or payoff. At September 30, 2013, the
      Bank had outstanding loans receivable of $72,624,205. Certain of these loans were funded using
      FCRA borrowing procedures. The outstanding amount of loans funded using FCRA borrowing
      procedures was $22,861,597 with interest rates ranging from .002% to 4.687% and maturity dates
      ranging from December 16, 2013 to December 31, 2047. The remaining non-FCRA loans receivable
      of $49,762,608 had interest rates ranging from .020% to 12.405% and maturity dates ranging from
      October 1, 2013 to July 17, 2045.

      At September 30, 2012, the Bank had outstanding loans receivable of $67,862,609. The outstanding
      amount of loans funded using FCRA borrowing procedures was $17,184,592 with interest rates
      ranging from .095% to 4.707% and maturity dates ranging from October 1, 2012 to December 31,
      2046. The remaining non-FCRA loans receivable of $50,678,017 had interest rates ranging from
      0.95% to 12.405% and maturity dates ranging from October 1, 2012 to July 17, 2045.




                                                      12
                                    FEDERAL FINANCING BANK
                                      Notes to Financial Statements
                                      September 30, 2013 and 2012
                                          (Dollars in thousands)



      Loans receivable at September 30, 2013 and 2012, consist of the following:

                                   Agency                                      2013                 2012
      Rural Utilities Service, Department of Agriculture               $     39,835,663           36,603,840
      U.S. Postal Service                                                    14,999,600           14,999,600
      Department of Energy                                                   14,034,442           12,170,688
      Rural Utilities Service, Department of Agriculture
        certificates of beneficial ownership                                     802,700           1,146,500
      General Services Administration                                          1,733,015           1,819,153
      Historically Black Colleges and Universities, Department
        of Education                                                           1,133,378             928,712
      Foreign Military Sales, Department of Defense                               80,131             188,397
      Veterans Administration Transitional Housing Program                         4,662               4,723
      Small Business Administration                                                   —                   60
      Federal Railroad Administration, Department
        of Transportation                                                           614                  936
                        Total loans receivable                         $     72,624,205           67,862,609

      The loans receivable due within one year are $16,083,555 and $16,040,021 as of September 30, 2013
      and 2012, respectively.

(5)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary, borrow without limit from the
      Treasury.

      For certain borrowings used to fund certain guaranteed loans based on FCRA, the interest rate is
      determined annually by the borrowing agencies using FCRA and Office of Management and Budget
      guidelines. At September 30, 2013, the Bank had $22,683,060 of Treasury borrowings used to fund
      guaranteed loans based on FCRA with interest rates ranging from 1.000% to 4.723%, and a maturity
      date of September 30, 2053. Under FCRA borrowing procedures, borrowings from Treasury do not
      capitalize interest.

      For the Bank’s non-FCRA borrowings, repayments on Treasury borrowings generally match the
      terms and conditions of corresponding loans made by the Bank and bear interest at the respective
      rate, as determined by the Secretary, and are repayable at any time, except for loans with fixed-price
      call options in the no-call period. In November 2004, certain borrowings from Treasury were
      refinanced under a debt limit transaction. At September 30, 2013, the Bank had $41,003,355 of
      Treasury borrowings for non-FCRA related loans, with interest rates ranging from .002% to 8.961%,
      and maturity dates from October 1, 2013 to December 31, 2047.

      At September 30, 2012, the Bank had $17,121,965 of Treasury borrowings used to fund guaranteed
      loans based on FCRA with interest rates ranging from 1.000% to 4.723% and a maturity date of
      September 30, 2050. Treasury borrowings for non-FCRA related loans of $40,543,098, with interest


                                                    13
                                    FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2013 and 2012
                                           (Dollars in thousands)



      rates ranging from 0.051% to 8.961%, and maturity dates from October 1, 2012 to December 31,
      2046.

      Finally, at September 30, 2013 and 2012, the Bank had borrowings of $5,695,107 and $7,111,559,
      respectively, and an associated unamortized premium of $72,584 and $102,454, respectively, from
      the Civil Service Retirement and Disability Fund (CSR&DF), which is administered by the Office of
      Personnel Management. At September 30, 2013, these borrowings were at a stated interest rate of
      4.625%, effective interest rate of 4.625%, and with maturity dates ranging from June 30, 2014 to
      June 30, 2019. At September 30, 2012, these borrowings were at stated interest rates 4.625%,
      effective interest rate of 4.625%, and with maturity dates ranging from June 30, 2012 to June 30,
      2019. Borrowing from the public amounted to $10 at September 30, 2013 and 2012.

      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal
      repayments of borrowings as of September 30, 2013 are as follows:

      Repayment date                                        Amount
        2014                                         $     16,567,758
        2015                                                3,026,213
        2016                                                3,764,650
        2017                                                2,607,789
        2018                                                2,505,805
        2019 and thereafter                                40,909,317
                   Total principal payments                69,381,532
                     Plus unamortized premium                  72,584
                     Total borrowings                $     69,454,116


(6)   Net Position
      At September 30, 2013 and 2012, the net position includes the following:

                                                                              2013             2012
      Beginning of year                                                 $    4,302,103        3,999,315
      Net Income                                                               300,343          302,788
                     Net position                                       $    4,602,446        4,302,103




                                                     14
                                    FEDERAL FINANCING BANK
                                      Notes to Financial Statements
                                      September 30, 2013 and 2012
                                          (Dollars in thousands)



(7)   Capitalized Interest
      Capitalized interest receivable was approximately $183,306 and $68,588, and the related capitalized
      interest payable was $624,833 and $530,176 as of September 30, 2013 and 2012, respectively.
      Capitalized interest receivable and payable are reported as part of the loans receivable and borrowing
      balances, respectively, on the statements of financial position. The large difference between
      capitalized interest receivable and capitalized interest payable is due to the effects of a debt limit
      transaction on November 15, 2004. This transaction altered the structure of existing debt and caused
      capitalized interest to accrue.

(8)   Loan Commitments
      The Bank makes loan commitments to extend credit to Federal program agencies based on the loan
      agreements executed between the parties. The loan commitments are not reported on the statements
      of financial position and generally have fixed expiration dates or other termination clauses. Since
      many of the loan commitments are expected to expire without being completely drawn upon, the
      total loan commitment amounts do not necessarily represent future cash requirements. The Bank
      uses the same credit policies in making loan commitments as it does for loans receivable reported on
      the statements of financial position. The Bank funds the loan commitments with its borrowing
      authority from the Secretary. There is no exposure or credit risk related to these commitments.

      The contract amounts and remaining loan commitments by program agency as of September 30,
      2013, are as follows:

                                                                             Contract          Remaining loan
                                  Agency                                     amounts            commitments
      Department of Education – FFEL Conduit                           $     60,000,000           60,000,000
      National Credit Union Administration – CLF                              2,000,000            2,000,000
      Rural Utilities Service, Department of Agriculture                     27,028,744            9,943,979
      U.S. Postal Service                                                    10,600,000                  400
      Department of Energy                                                    8,417,383            1,487,368
      Historically Black Colleges and Universities,
        Department of Education                                                327,500               183,461
      Secretary of the Treasury-SOT HOPE                                         3,000                 3,000
                     Total commitments                                 $   108,376,627            73,618,208




                                                    15
                                   FEDERAL FINANCING BANK
                                      Notes to Financial Statements
                                      September 30, 2013 and 2012
                                          (Dollars in thousands)



(9)   Subsequent Events
      On October 1, 2013, the Bank issued a debt obligation of $9,304,883 under section 9(a) of the FFB
      Act to the CSR&DF in exchange for certain special-issue Treasury debt obligations (“Specified
      Treasury Specials”) issued by the Treasury and presently held by the Civil Service Fund. The Bank’s
      9(a) Obligations will match the coupon rates, the payment dates, the maturity dates and the
      redemption terms of the Specified Treasury Specials that the Bank receives from the Civil Service
      Fund.

      On October 1, 2013 the Bank exchanged the Specified Treasury Specials received from the Civil
      Service Fund of $9,304,883 to extinguish borrowings from the Treasury of $8,296,609; related
      capitalized interest of $483,235 and related accrued interest payable of $2,517 for certain debt
      obligations issued by the Bank under section 9(b) of the FFB Act (such obligations of the Bank being
      the Bank’s “9(b) Obligations”), and held by the Treasury. Additionally, FFB received $71,201 in
      related interest which will be paid to the CSR&DF on December 31, 2013.

      On the statement of financial position, funds with Treasury increased by $71,201, borrowings
      increased by $525,039 and accrued interest payable increased by $68,684. The transactions resulted
      in the Bank owing debt to the CSR&DF instead of the Treasury Department and resulted in a loss of
      $522,522 which represents a capital transaction with Treasury.




                                                   16
                                       FEDERAL FINANCING BANK
                                       Other Information – Schedule 1
                             Unaudited – See Accompanying Auditors’ Report
                                        September 30, 2013 and 2012
                                           (Dollars in thousands)



In prior years, the Federal Financing Bank (the Bank) purchased certificates of beneficial ownership (i.e.,
loans reported as loans receivable on the statement of financial position) from the Rural Utilities Service
(RUS), a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to
issue loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed
legislation (i.e., 7 USC Sec. 940c Cushion of Credit Payments Program) that required RUS to develop and
promote a program to encourage private utility companies to voluntarily make deposits into cushion of
credit accounts established within RUS. The legislation also indicated that a private utility company may
reduce the balance of its cushion of credit account only if the reduction is used to make scheduled
payments on loans received from RUS. In accordance with the legislation, the private utility companies
accrue interest at a rate of 5% per annum or the weighted average rate of the certificates of beneficial
ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also indicated
that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS pays to the
private utility companies. The Bank records the interest credit in the period the cost is incurred as a
legislatively mandated interest credit (contra-revenue to interest on loans) in the statements of operations
and changes in net position. As of September 30, 2013, the outstanding principal balance of the five RUS
loans subject to the certificates of beneficial ownership (CBO) legislation totaled $802,700, with interest
rates ranging from 7.755% to 12.405 %, and maturity dates ranging from 2014 to 2021. In October 1998,
the Bank received an appropriation that offset the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2013 are as follows:

Fiscal year                                        Interest credits
1988–2009                                      $        2,318,062
2010                                                      271,461
2011                                                      249,813
2012                                                      158,794
2013                                                      100,001
              Total interest credits                    3,098,131
Less appropriation                                        (917,699)
              Total                            $       2,180,432




                                                     17
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                        Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

Report on the Financial Statements

We have audited the accompanying financial statements of the Federal Financing Bank (the Bank), which
comprise the Statements of Financial Position as of September 30, 2013 and 2012, and the related
Statements of Operations and Changes in Net Position and Cash Flows for the years then ended, and the
related notes to the financial statements.

Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principles; this includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financial statements
that are free from material misstatement, whether due to fraud or error.

Auditors’ Responsibility

Our responsibility is to express an opinion on these financial statements based on our audits. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 14-
02, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No. 14-02
require that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement.
An audit involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors’ judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity’s internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as well as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.




                                                                18
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank as of September 30, 2013 and 2012, and the results of its
operations, changes in net position, and its cash flows for the years then ended in accordance with U.S.
generally accepted accounting principles.

Other Matters

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Management’s Discussion and Analysis and Other Supplementary
Information included in Schedule 1 is presented for purposes of additional analysis and is not a required
part of the basic financial statements. Such information has not been subjected to the auditing procedures
applied in the audits of the basic financial statements, and accordingly, we do not express an opinion or
provide any assurance on it.

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated December 9,
2013 on our consideration of the Bank’s internal control over financial reporting and on our tests of its
compliance with certain provisions of laws, regulations, and contracts and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards in considering the Bank’s internal control over financial reporting
and compliance.




December 9, 2013




                                                    19
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006

                 Independent Auditors’ Report on Internal Control Over Financial Reporting

Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:

We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of the Federal
Financing Bank (the Bank), which comprise the Statements of Financial Position as of September 30, 2013
and 2012, and the related Statements of Operations and Changes in Net Position and Cash Flows for the
years then ended, and the related notes to the financial statements, and have issued our report thereon
dated December 9, 2013.
Internal Control Over Financial Reporting

In planning and performing our audit of the financial statements as of and for the year ended September 30,
2013, we considered the Bank’s internal control over financial reporting (internal control) to determine the
audit procedures that are appropriate in the circumstances for the purpose of expressing our opinion on the
financial statements, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s
internal control. Accordingly, we do not express an opinion on the effectiveness of the Bank’s internal
control. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control, such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with governance.
Our consideration of internal control was for the limited purpose described in the first paragraph of this
section and was not designed to identify all deficiencies in internal control that might be material
weaknesses or significant deficiencies. Given these limitations, during our audit we did not identify any
deficiencies in internal control that we consider to be material weaknesses. However, material weaknesses
may exist that have not been identified.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the result of
that testing, and not to provide an opinion on the effectiveness of the Bank’s internal control. This report is
an integral part of an audit performed in accordance with Government Auditing Standards in considering
the Bank’s internal control. Accordingly, this communication is not suitable for any other purpose.




December 9, 2013


                                                                  20
                                 KPMG LLP is a Delaware limited liability partnership,
                                 the U.S. member firm of KPMG International Cooperative
                                 (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                   Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:


We have audited, in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 14-02, Audit Requirements for Federal Financial Statements, the financial statements of Federal
Financing Bank (the Bank), which comprise the Statements of Financial Position as of September 30, 2013
and 2012, and the related Statements of Operations and Changes in Net Position and Cash Flows for the
years then ended, and the related notes to the financial statements, and have issued our report thereon dated
December 9, 2013.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Bank’s financial statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opinion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Government Auditing Standards or OMB Bulletin No. 14-02.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the result of that
testing, and not to provide an opinion on the Bank’s compliance. This report is an integral part of an audit
performed in accordance with Government Auditing Standards in considering the Bank’s compliance.
Accordingly, this communication is not suitable for any other purpose.




December 9, 2013




                                                                 21
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
